                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

Case Number: A-02050032
                                                                                11           Page 1 of 1



      On May 2002, we received an allegation that more than half of the work plan presented in the
      subject's declined NSF proposal1 (the proposal) had already been completed because the results
      allegedly appeared in the subject's paper2 (the paper) published prior to the proposal's
      submission.

      We reviewed the proposal, the paper, and a letter from the subject to the NSF program
      officer about the concerns that some of the proposed work had been completed.3 The
      paper, which is cited three times in the proposal, stated that reported results were the first
      of their kind about one aspect of a particular model. Further, the proposal stated that the
      results in the paper were preliminary. Finally, the letter explained in detail the
      preliminary nature of the results presented in the paper and how these results represented
      the initial steps in the development of the proposed projects.

      We concluded that, although the proposal could have described more carefully the
      relationship between the proposed projects and the preliminary results presented in the
      paper, the evidence clearly indicated that very little of the proposed work had been
      completed by the subject at the time he submitted his paper for publication.

      This case is closed and no further action will be taken.




        the subject and presented in the paper.


                             Agent                   Attorney             Supervisor                   AIGI

  Sign l date
